C3

IN THE

Supreme Court of tfje 53ntteb H>tate£
GAREY NEHRKE,

FILED
SEP 1 8 2019
.SUPREEMEFcTynRTL|^K

Petitioner,
v.
WELLS FARGO BANK N.A.,
Respondent.

On Petition for a Writ of Certiorari to the
Florida Fourth District Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Garey Nehrke
2920 NW 2nd Ave
Pompano Beach, FL 33064
954-644-9900
Pro Se Petitioner

SEP 2 3 2019
JuPBaS'co'&^y

1

QUESTIONS PRESENTED
The petitioner, his family and millions of Americans
have been violated of their Constitutional Rights for over
a decade due to the ongoing Foreclosure Crisis. In trying
to rectify numerous wrongs committed against him and
his family by Wells Fargo, they have encountered
countless unlawful acts of retaliation for whistleblowing.
They have been stonewalled in their pursuit of justice,
as Wells Fargo has been assisted by Courts and
leadership in avoiding its unlawful acts against them. If
preventing manifest injustice is the mandate set forth
by this Supreme Court, then rectifying the decades-long
injustices inflicting undue and inexcusable harm on the
petitioner, his family and millions of other victims must
be first priority. The peoples Justice System and
Constitution that bore it, can no longer afford the years
of failures in favor of habitual wrongdoer Wells Fargo
and others, as it has permanently marred the system by
leaving millions questioning its validity.
It is undeniable the GSEs are State-actors, as Fannie
is operating under Treasury agreement with Wells
Fargo “solely as financial agent of the United
States.” This stands true for Freddie Mac, as the
government Totally Controls both entities, and as such
has been wrongfully financially benefiting from millions
of unlawful foreclosures. These mass unlawful
foreclosures have directly led to persistent economic
problems, including record poverty, homelessness,
prescription drug abuse and alcoholism, brought on by
spikes in anxiety, depression, PTSD and suicides. These
serious issues are unacceptable in this Constitutional
society and hit at the heart of our country’s defenses, as
many active and retired military families have been
victimized, as is the case herein.
It is no secret, especially herein this Court, that mass
foreclosure fraud has been committed by Wells Fargo
and others. These egregious frauds on the Courts

11

include lack of standing, as the unconstitutionally
created FHFA utilized State-actors Fannie Mae and
Freddie Mac (GSEs), along with Wells Fargo and other
national banks to unlawfully utilize state Courts to
commit mass fraud with countless false and misleading
statements, by filing numerous fabricated documents
within schemes to gain unjust riches through facially
void judgements. Through these schemes, millions of
Home Equity Lines of Credit (HELOC) were foreclosed
in violation of Uniform Commercial Code (UCC) and
state law, including FL law herein. The fact that the
government has financially benefitted through its
unconstitutional Net Worth Sweep (NWS), has led to
talk of some kind of wrongful backdoor immunity deal with factions of the government, protecting Wells Fargo
and other wrongdoers, that has unconstitutionally
stonewalled millions of American victims within the
Courts.
Wells Fargo and others 'utilized the GSEs and
multiple
unlawful
RMBS
securitizations
and
rehypothecations to force millions of unsuspecting
American homeowners into default by improperly
manipulating government mandated modification. This
directly led to mass foreclosure fraud, and forced many
into bankruptcy to protect their family’s homes,
including the petitioner’s daughter and previous
petitioner Nicole Barone (17-1601). Utilizing these
undisclosed RMBS transactions in violation of SEC
securities laws, Wells Fargo and others collected unjust
riches well in excess of mortgage notes by unlawfully
utilizing millions of Americans homes without
disclosure, consent and authority, and without applying
benefits to the note balances. Additionally, under NEMO
DAT QUOD NON HABET, Wells Fargo and others,
including the GSEs are not Legal Owners and have no
right to “sell” and/or “pledge” the homeowners rights.
This case raises vital issues of federal jurisdiction
over Wells Fargo, national banks and the GSEs as de

Ill

facto
State-actors.
It
raises
questions
over
Constitutional Rights, violations of the UCC and state
laws, harassment and abuse of whistleblowers, mass
foreclosure & modification fraud, securities laws over
(RMBS),
undisclosed
mortgage
securitization
rehypothecation and secondary default insurances and
derivatives. Thus, the questions presented are:
1. Whether Wells Fargo and others under National
Bank Act, 12 U.S.C. 1 et seq. exclusive federal regulation
and pre-emption, along with restrictions on states
require federal Court jurisdiction? and Whether federal
Court jurisdiction is required due to U.S. Government’s
involvement in millions of de-facto and entwined GSE
State-actor foreclosures and subject it to the property
“takings” clause of the U.S. Constitution?
2. Whether “selling” and/or “pledging” millions of
homeowners’ property as collateral without consent and
disclosure
through
RMBS
securitization
and
rehypothecation of mortgage notes is unlawful,
unconstitutional and violate NEMO DAT QUOD NON
HABET? and Whether SEC securities laws prohibit this
non-disclosure and collection of financial benefits not
applied to and well in excess of mortgage note debt owed
is unlawful and unconstitutional?
4. Whether numerous foreclosures violating UCC
and some states law, including Florida HELOCs, must
be vacated?
5. Whether Florida law allowing non-opinioned Per
Curiam Affirmation (PCA) orders to remove review
authority of the state High Court violates the guarantee
of a fair legal process? and Whether all courts must file
written opinions to satisfy Due Process?

IV

PARTIES TO THE PROCEEDING
Petitioner, Garey Nehrke was defendant in the
Circuit Court, and appellant in Florida Fourth District
Court of Appeals.
Respondent, Wells Fargo Bank N.A. was sole
plaintiff in trial Court and appellee on appeal. It is
servicer for an unknown/secret party.
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental
corporation, has a parent corporation or shares held by
a publicly traded company.
TABLE OF CONTENTS
Page(s)
QUESTIONS PRESENTED.....................................

1

PARTIES TO THE PROCEEDING...................... ...

IV

RULE 29.6 STATEMENT.........................................

IV

TABLE OF AUTHORITIES............. .........................

V

PETITION FOR A WRIT OF CERTIORARI..........

1

DECISIONS BELOW..................................................

1

JURISDICTION....................... ......... ;.......................

1

CONSTITUTIONAL, STATUATORY & RULING
PROVISIONS INVOLVED........................................

1

INTRODUCTION.........................................

3

STATEMENT OF THE CASE...................

11

REASONS FOR GRANTING THE WRIT

17

I. This Court Should Grant Certiorari To Address
The Jurisdiction of Wells Fargo and National

V

Banks and the GSEs Acting Solely as Financial
Agents of the United States.................................. 19
II. This Court Should Grant Certiorari To Address
the Vital Issues of Undisclosed Derivatives,
Securitization & Rehypothecation Violating
NEMO DAT QUOD NON HABET, SEC
Securities Laws and the Loan Contracts .......... 22
III.This Court Should Grant Certiorari To Address
Servicer Standing Under the UCC and Florida
Law and to Address the Importance of the Real
24
Party In Interest in Foreclosures
IV. This Court Should Grant Certiorari To Address
Florida Law That Infringes On Constitutional
Due Process with Non-Opinioned PCA Decisions
that Remove the Review Authority Of The
32
Highest State Court
CONCLUSION..................

34

APPENDIX
Denial of Rehearing, and/or Certification or Request for
Written Opinion, Florida Fourth District Court of
App. 1
Appeals, June 20th, 2019
Non-Opinioned PCA, Florida Fourth District Court of
App. 2
Appeals, May 9th, 2019
Final Judgement, 17th Circuit Court Broward County,
App. 3-7
July 3rd, 2018
TABLE OF AUTHORITIES
CASES
Balch v. LaSalle Bank, N.A.,
171 So. 3d 207, 209 (FLA. 4th DCA 2015)
Bankers Trust (Delaware) v. 236 Beltway Inv.,
865 F. Supp. 1186, 1195 (E.D. Va. 1994)..........

Page(s)
26
25

VI

Biddle v. State Beverage Dept.,
187 So. 2d 65, 67 (Fla. 4th DCA 1966)

27

Borden v. East-European Ins. Co.,
921 So. 2d 587, 595 (Fla. 2006) ..........

25, 26

Boyd v. Wells Fargo Bank, N.A.,
143 So. 3d 1128 (Fla. 4th DCA 2014)..

28

Brentwood Academy v. Tennessee Secondary School
Athletic Ass’n, 531 U.S. 288, 297, 121 S.Ct. 924, 148
21
L.Ed.2d 807 (2001)................:...................
Carapezza v. Pate,
143 So. 2d 346, 347 (Fla. 3d DCA 1962).

29, 30

Carpenter v. Longan, 83 U.S. 271 (1872)

29, 30

Chuchian v. Situs Invs., LLC,
219 So.3d 992, 993 (Fla. 5th DCA 2017).

32

Dept, of Transportation v. Assoc, of Amer. Railroads,
135 S. Ct. 1225 (2015)........ ......................................... 20
Elston/Leetsdale, LLC u. CWCapital Asset Mgmt. LLC,
26, 27
87 So. 3d 14 (Fla. 4th DCA 2012)
Farmers' & Mechanics Nat 7 Bank v. Bearing,
91 U.S. 29, 34 (1875).........................................

20

Hollingsworth v. Perry, 133 S. Ct. 2652 (2013)

21

In re Phillips,
491 B.R. 255, 263 (Bankr. D. Nev. 2013).....

25

KPMG LLP v. Cocchi,
565 U.S. 18, 19 (2011)......................................

1

Kuehlman v. Bank of America,
177 So3d 1282 (Fla.5th DCA 2015)...........

15

Kumar Corp. v. Nopal Lines, Ltd.,
462 So, 2d at 1185............................................

27

vu
Lebron v. National Railroad Passenger Corp., 513 U.S.
20
374, 115 S. Ct. 961, 130 L. Ed. 2d 902 (1995) ....
Levine v. United States,
362 U.S. 610, 80 S.Ct. 1038 (1960)...................

33

Lizio v. McCullom,
36 So. 3d 927, 929 (Fla. 4th DCA 2010).........

29

Loan Co. v. Smith,
155 So. 2d 711 (Fla. 1st DCA 1963) ................

28

Marbury v. Madison, 5 U.S. 137 (1803)..............

22

McClean v. JPMorgan Chase Bank Nat’l Assn,
79 So. 3d 170, 173 (Fla. 4th DCA 2012)..............

29

Nowlin v. Nationstar Mortg., LLC,
193 So.3d 1043 (2016)......,..................................

15

Offutt v. United States,
348 U.S. 11, 14, 75 S.Ct. 11, 13 (1954)............

33

Pfizer Inc. v. Lord, 456 F.2d 532 (8th Cir. 1972)

33

Phelps v. Gilbreth, 68 So. 2d 360 (Fla. 1953)......

28

Simpkins v Wells Fargo Bank, N.A.,
2013 WL 4510166, at *7 (S.D. Ill. Aug 26, 2013).... 16
Sisti v. Federal Housing Finance Agency,
2018 WL 3655578 (D.R.I. Aug. 2, 2018)................... 20
Smith v. Kleiser, 91 Fla. 84 (Fla. 1926)...................... . 30
State v. Goode, 830 So. 2d 817, 824 (Fla. 2002).......... 26
Third Fed S & L Assoc, of Cleveland v. Koulouvaris,
Case No. 2D17-773 (Fla. 2™* DCA May 18, 2018).... 31
U. S. v. James Daniel Good Real Prop., 510 U.S. 43, 53—
22
54, 114 S. Ct. 492, 126 L. Ed. 2d 490 (1993)

/

Vlll

United States v. Sciuto, 521 F.2d 842, 845 (7th Cir. 1996)
33
United States v. Texas, 143 U.S. 621 (1892)

21

United States of Amer. Ex. Rel. Peter D. Grubea u.
Rosicki, Rosicki & Assoc., P.C., et al., No. l:12-cv-07199
21
(S.DN.Y. 2012)
Val. Forge Chris. Coll. v. Amer. Utd. for Sep. of Church
30
& State, Inc., 454 U.S. 464, 474 (1982)
Verizzo v. Bank of New York,
28 So. 3d 976, 978 (Fla. 2d DGA 2010)

29

Watters v. Wachovia Bank, N. A., No. 05-1342, 550 U.S.
19, 20
1 (2007)......................
CONSTITUTIONAL
PROVISIONS

AND

STATUATORY

U.S. Const, amend. V, cl. 3 & 4.

1

U.S. Const. Article III, § 2, cl. 1

2, 21

U.S. Const. Article VI, cl. 2......

2

12 C.F.R. § 7.4000(a) ................

20

12 C.F.R. § 7.4000(a)(2)(i)-(iv) ..

20

17 C.F.R. § 240.10b-5................

2, 23

12 U.S.C. § 484(a).......................

19

28 U.S.C. § 1345..........................

..... 2, 21

Fla. Stat. § 673.1041(1), (2012)

11, 30, 31

Fla. Stat. § 673.2011 ................

25

Fla. Stat. § 673.2031(4)............

25

RULES
Fed. R. Civ. P. 17 .................... ...

30

IX

Fed. R. Civ. P. 19.........................................................

30

OTHER AUTHORITIES
FNMA Servicing Guide, Part I, Ch. 2, Sec. 202.06

26

Ice, Thomas Erskine, Negotiating the American Dream:
A Critical Look at the Role of Negotiability in the Fore­
closure Crisis, The Florida Bar, Vol. 86, No. 10
(December 2012) ......... .............................................

24

National Bank Act, 12 U.S.C. 1 et seq........................

19

NEMO DAT QUOD NON HABET............ ...... ...

7, 23

Neil Barofsky, ex- S.I.G. for TARP, book,
BAILOUT, Ch. 8, Foaming the Runway.............

15

Real-Party-In-Interest-Doctrine.................................

30

Restatement(Third) of Agency §1.01 cmt.f (1)(2006)
.21, 22
Securities Exchange Act of 1934 § 10(b)

2, 7, 23

Uniform Commercial Code (UCC).. .......

.passim

1
PETITION FOR A WRIT OF CERTIORARI
Garey Nehrke respectfully petitions for a Writ of
Certiorari to review the order of Florida Fourth District
Court of Appeals.
DECISIONS BELOW
The Florida Fourth District Court of Appeals nonopinioned denial of rehearing, certification and/or
request for written opinion order (App. 1), its nonopinioned PCA order (App. 2), and Final Judgement of
17th Judicial Circuit Court for Broward County (App. 3)
are attached hereto.
JURISDICTION
The non-opinioned order of Florida Fourth District
Court of Appeals denying rehearing, certification and/or
request for written opinion was entered on June 20th,
2019, so this petition is timely filed. This Court’s
jurisdiction rests on 28 U.S.C. § 1257(a), “the highest
court of [the] State in which a decision could be had.”
See, e.g., KPMG LLP v. Cocchi, 565 U.S. 18, 19 (2011)
(per curiam).
CONSTITUTIONAL, STATUATORY & RULING
PROVISIONS INVOLVED
U.S. Const, amend. V, cl. 3 & 4, state: ...nor be
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.” Accordingly, U.S. Const,
amend. XIV, §1, cl. 2, provides in part: “nor shall any
State deprive any person of life, liberty, or property,
without due process of law.”
U.S. Const. Article III, § 2, cl. 1: “The judicial Power
shall extend to all Cases, in Law and Equity, arising

2
under this Constitution, the Laws of the United States,
and Treaties made, or which shall be made, under their
Authority...to Controversies to which the United States
shall be a Party...”. Concurring, 28 U.S.C. § 1345 states:
“the district courts shall have original jurisdiction of all
civil actions, suits or proceedings commenced by the
United States, or by any agency or officer thereof
expressly authorized to sue by Act of Congress.” (June
25, 1948, ch. 646, 62 Stat._933.).
U.S. Const, art. VI, cl. 2: “the Laws of the United
States . . . shall be the supreme Law of the Land; and
the Judges in every State shall be bound thereby, any
Thing in the Constitution or Laws of any State to the
Contrary notwithstanding.”
17 CFR § 240.10b-5 Employment of
manipulative and deceptive devices.
It shall be unlawful for any person, directly or.
indirectly, by the use of any means or instrumentality
of interstate commerce, or of the mails or of any facility
of any national securities exchange, (a) To employ any
device, scheme, or artifice to defraud, (b) To make any
untrue statement of a material fact or to omit to state
a material fact necessary in order to make the
statements made, in the light of the circumstances
under which they were made, not misleading, or (c) To
engage in any act, practice, or course of business which
operates or would operate as a fraud or deceit upon any
person, in connection with the purchase or sale of
any security. (Sec. 10; 48 Stat. 891; 15 U.S.C. 78j) [13
FR 8183, Dec. 22, 1948, as amended at 16 FR 7928,
Aug. 11, 1951]

3
INTRODUCTION
It is no secret that Wells Fargo has defrauded mil­
lions of customers over the past decade or so, including
countless homeowners that have been wrongfully re­
moved from their homes by being dragged through the
Foreclosure Crisis. To this day, Wells Fargo and others
have not been truly held accountable to the millions of
American homeowners they victimized through mass
wrongful foreclosures. In fact, homeowners like the pe­
titioner and his family for close to a decade have been
wrongfully stonewalled within the Courts, and recent
information received while communicating with cur­
rent and former members of the DOJ has shed light on
some kind of backdoor immunity deal. On the bright
side, one member of this High Court, which has denied
three previous petitions and reconsiderations thereof
filed by the petitioner’s family, was noted as showing
angst in favor of numerous harmed homeowners. Un­
fortunately, though Wells Fargo who sat atop the mort­
gage business for much of the past decade has not been
held accountable for the millions of atrocities it inflicted
upon American homeowners. A recent federal appeals
Court ruling has deemed the Net Worth Sweep (NWS)
unconstitutional and previously held the FHFA to also
be unconstitutional, in agreeance with the arguments
herein and within the three previous petitions. The
NWS has unlawfully syphoned Billions to the Treasury
from the GSEs through millions of wrongful foreclo­
sures by Wells Fargo and others. It is obvious record
poverty and homelessness driven by the historical Fore­
closure Crisis have created one of the greatest discon­
nects between wealth classes in history and has de­
stroyed the American dream for millions of victims. It’s
time for Leadership to address the Foreclosure Crisis
realities on millions of ignored and struggling Ameri­
can victims.

4
President Abraham Lincoln made it clear the job of
leadership is to act in the best interest of the American
people who truly control the government, by protecting
them from those who encroach on their Constitutional
Rights.1 It is undeniable that the government was/is
the ultimate financial beneficiary of millions of unlaw­
ful foreclosures by Wells Fargo and others.2 It is the
Constitutional purpose of this Court to step in and pro­
tect millions of Americans, many already victimized, by
upholding their rights as citizens and holding the per­
petrators like Wells Fargo accountable. This Court can
clearly see herein and in previous petitions, that the
lower Courts have failed to uphold the law and protect
victims Constitutional Right's. In fact, Mr. Nehrke and
his family have been continually harassed and abused
by Wells Fargo since whistleblowing its numerous
crimes. Recently Wells Fargo, Fannie Mae, Shapiro
Fishman & Gache’, All Homes Realty of Coral Springs
FL and Amanda Cohen criminally trespassed, broke &
entered, changed locks to lock the petitioners family out
of their home, destroyed property and posted unlawful
notices in violation of Fla. Stat. § 45.031(5),as they com­
mitted these acts only days after the unlawful sale and
well before the ten days required. The Courts have
failed to protect the Pro Se litigants (Mr. Nehrke and
his family) by ignoring and/or making excuses for clear

1 “...The people — the people — are the rightful masters of both
Congresses, and courts — not to overthrow the Constitution, but
to overthrow the men who pervert it —". Abraham Lincoln, [Sept.
16-17, 1859] (Notes for Speech in Kansas and Ohio), Page 2.
2 US Treasury, “Amended and Restated Commitment to Purchase
Financial Instrument and Servicer Participation Agreement”, be­
tween Fannie Mae (acting solely as financial agent of the
United States) and Wells Fargo, available at https://www.treas11 ry p-nv/i n i t.i a t.i ve s/fi n a n ci a 1- stabilitv/TARP-programs/hou sinv/mha/Documents Contracts Agreements/wellsfargobankna redacted.pdf

5
and obvious retaliatory acts, especially against a 77yr
old veteran who has recently suffered multiple small
strokes, has previously suffered three heart attacks and
who is battling progressive Parkinson’s disease. Not to
mention the continued harassment and abuse on his
daughter who is a disabled cancer survivor with a frag­
ile immune system, who suffered an extremely rare bro­
ken pelvis from childbirth with debilitating effects and
a recent heart attack directly attributable to the unlaw­
ful acts of Wells Fargo and foreclosure Judge Ledee,
while she battled recent pneumonia. The unlawful re­
taliatory acts by Wells Fargo and its cohorts have con­
tinued unabated, as recent events have accelerated
since Mr. Nehrke and his family contacted the DOJ and
began working with current and former officials to ad­
dress the issues at hand. During the weeks they fre­
quented the Fort Lauderdale offices inside the federal
building, Mr. Nehrke’s grandchildren’s health insur­
ance was mysteriously alleged as cancelled two years
ago when they have recently received ID cards and
have paid claims from within the last year or so.3 Addi­
tionally, during their communication with the DOJ,
Wells Fargo placed an unauthorized stop payment on
Mr. Nehrke’s electric bill and then allowed FPL to take
a duplicate unauthorized payment which has yet to be
corrected.4 Moreover, a few days later, Wells Fargo al­
lowed Geico to take a rare two unauthorized payments,

3 This issue has not been fully resolved, as of last advisement one
of his three grandchildren was still not reinstated. This act was
similar to issues recently experienced by another known Wells
Fargo whistleblower, and involved the same health insurer United
Health.
4 Wells Fargo continues to wrongfully accuse Mr. Nehrke and his
daughter of requesting the unauthorized stop payment, but has
reimbursed the fee. Neither Wells Fargo nor FPL has enlightened
to who was wrongfully holding over four hundred dollars of Mr.
Nehrke’s money, as they both continue to blame each other.

6
which on last advisement was said to be the check is in
the mail. Neither of these companies had the authority
to auto debit Mr. Nehrke’s account without his author­
ization, as he does not utilize auto payment with these
companies. These acts were witnessed by the current
and former officials of the DOJ, who also attempted to
make phone calls to inquire and attempt to rectify these
issues. Recently on August 21st, the foreclosure Court
properly utilized the law and vacated Wells Fargo’s un­
lawful foreclosure sale that it wrongfully orchestrated
while under appeal.6 That same day, Treasury sent a
letter that it was going to garnish Mr. Nehrke’s social
security for alleged unpaid VA claims, questionable
claims accusing Mr. Nehrke of utilizing the Miami VA
for times he did not visit, in fact one of the alleged dates
was December 23rd when Mr. Nehrke was in New York
City for Christmas.6 These issues just curiously arose
at very convenient times, and clearly have validity, as
you just can’t make this stuff up. Furthermore, the
Treasury was willing to so easily garnish his social se­
curity, when he has submitted multiple appeals over
the years for the $77 per month benefit for his deceased

5 This hearing occurred because Wells Fargo set it without Mr.
Nehrke’s consent, after it vehemently denied his request for its in­
tentions with the hearing be put in writing, and in fact its repre­
sentative tried to strongarm him by threatening that if he
did not pick a date she would pick it for him, which she did.
6 Mr. Nehrke and his daughter requested all service information
for the alleged dates provided, as they only made one trip to the
Miami VA which was with the wrong doctor, and they paid his part
of the visit. Recently, after an investigation was filed, the VA has
advised that they are going to just remove the claims submitted to
the treasury, claims sent thereto without sending any previ­
ous statements and/or requests for payment to Mr. Nehrke.

7

wife, who’s wrongful death occurred on September 6th,
2015, some four years ago.7
Wells Fargo utilizes these unlawful acts with assis­
tance from factions within the government to retaliate
against whistleblowers and financially strain them so
they cannot afford to continue to legally fight back. This
is all to unlawfully conceal the facts that Wells Fargo
and others defrauded millions of American homeown­
ers through outright false misrepresentations with im­
plementation of the government mandated HAMP
modification program. A pattern of unlawful activity by
Wells Fargo and others is clearly obvious, as other cus­
tomers have shared eerily similar stories, including
many having continual wrongful censorship issues with
their social media accounts. These unconscionable
frauds were part of a scheme whereas numerous de­
fault derivatives and secondary insurance bets taken
against their customers interests were unlawfully trig­
gered and benefits unjustly collected by way of forced
defaults. These bets violated multiple federal laws, in­
cluding TILA, RESPA and SEC Rule 10b-5, by unlaw­
fully utilizing millions of Americans homes as collateral
to “sell” and/or “pledge” their properties thru undis­
closed, unconsented and unauthorized RMBS securiti­
zations and rehypothecations, of which the benefits
were NOT applied to the note balances as required by
the contracts. These multiple unlawful “pledges” are
also in direct violation of NEMO DAT QUOD NON
HABET. Wells Fargo and some others utilized proprie­
tary software patents with the wrongful intent to secu­
ritize and rehypothecate Americans homes before con­
tracts were signed, homes they were not Legal Owners

7 These multiple appeals to social security have not been answered
and rectified, as it stands today Mr. Nehrke is owed close to
four thousand dollars from social security for this benefit.

8

of and unlawfully received the unjust benefits for. Wells
Fargo and others misled millions of Americans, includeing Mr. Nehrke and his family, into believing the loans
they were entering into were traditional mortgages,
but as the facts show, that was far from the case. These
loans were undisclosed securities transactions
for the direct benefit of Wells Fargo and others,
including the government through its GSE finan­
cial agents, without full disclosure to and with­
out the consent of millions of Americans to gam­
ble their homes in the volatile securities markets,
(bold emphasis added). Millions of Americans, includeing Mr. Nehrke and his family, never gave consent to
Wells Fargo and others, including the GSEs as finan­
cial agents for the government, to collect unlawful mon­
etary benefits by wrongfully utilizing their homes, and
of which were not applied to the note balances.
This Court can no longer ignore the numerous delib­
erate unlawful acts and injustices inflicted on mass
Americans, many by Wells Fargo and the lower Courts.
If found to be because of some wrongful backdoor im­
munity deal, which should have contained a standard
stop breaking the law cause, Wells Fargo would have
breached that clause countless times just with the peti­
tioner and his family. Wells Fargo and others must be
held accountable to millions of American victims and
must pay restitution directly thereto. There are com­
mon sense No-Brainer plans discussed with the current
and former DOJ officials that will rectify the Foreclo­
sure Crisis and the governments involvement thereof
through the GSEs, that will immediately spike eco­
nomic activity to record levels, alleviate the unconstitu­
tional violations upon GSE affected homeowners and
shareholders, create jobs, reduce the decades-long

9
Wealth Gap by increasing personal wealth and dispos­
able income among the masses by returning property
unlawfully taken and increase tax revenue across the
board to start paying down the massive deficit. All of
these positives while the overhanging negatives are re­
moved through proper restitution and minimal fallout
from markets that will be met with Americans rebuild­
ing their retirement nest eggs that were wrongfully re­
duced or lost because of the wrongful issues at hand.
It is undeniable that the conditions for some kind of
wrongful backdoor immunity deal exists by looking at
the numbers of homeowners who have actually pre­
vailed in seeking justice compared to the overwhelming
majority whose justice has been stonewalled. Espe­
cially when looking at the facts, the government has
collected Billions in fines for all the unlawful acts
against millions of homeowners and their properties,
while they lie helpless with manifest injustices and no
restitution. One of the settlements intended to help vic­
timized homeowners was National Mortgage Settle­
ment (NMS), which contrarily was utilized to further
harms against victims. This is especially known in FL
where the funds were used to close hundreds of cases
per day per foreclosure judge utilizing unlawful pro­
ceedings void of Constitutional Rights of Due Process
by lacking mandatory court reporters or recording de­
vices, and was funded by the infamous Rocket-Docket.8
Evenmoreso disturbing, is the reality the trial Courts
benefitted from mass wrongful foreclosures, as in the
midst of the Foreclosure Crisis, record homelessness

8 See, Alison Fitzgerald Kodjak of NPR, The Center for public In­
tegrity, “Homeowners Steamrolled as Florida Courts Clear Fore­
closure Backlog”, September 10, 2014, updated January 7, 2015,
available at, https://pubUcintegritv.org/business/homeownersstsamroUed-as-florida-courts-clear-foreclosure-backlog/

10
and poverty, Broward County managed to build a NY
like skyscraper Courthouse that trumps the iconic 110
Tower which over time has housed some of the who’s
who of elite legal professionals. The facts show the fore­
closure Courts have financial incentives to foster mass
wrongful foreclosures to the detriment of American vic­
tims. Their unlawful acts in assisting Wells Fargo in
concealing its unlawful atrocities leaves little to no
doubt to the intent of their actions, including herein
and within litigations with Mr. Nehrke and his family.
These blatant violations of law can no longer be al­
lowed to foster in a system of justice created by the U.S.
Constitution, filled with officials that have taken oaths,
some multiple, to protect the American people and up­
hold the law. Especially one with clear instructions to
prevent manifest injustice and to work toward settle­
ment of grievances. The distain that Americans and
some legal professionals have for the justice system be­
cause of the past decade or so of stifling millions of vic­
tims’ efforts to seek justice for their generations of
wealth, memories and homes unlawfully taken from
them is unconscionable. The basic foundation of the jus­
tice system has been marred by these millions of un­
lawful foreclosures and the obvious assistance of habit­
ual wrongdoers like Wells Fargo, as witnessed by so
many victims. This Supreme Court must reverse years
of unfounded and unlawful excuses utilized to prevent
victims from obtaining justice, so as to rebuild the pub­
lic’s trust in the people’s judicial system.
Petitioner, his family and millions of victims pray on
this Court to rectify these egregious issues of clear man­
ifest injustice by upholding rights afforded unto mil­
lions of American victims within the U.S. Constitution.
Especially when No-Brainer plans have been fostered

11
that would fix the issues with minimal fallout and the
overwhelmingly positive benefits of such plans would
reach every faction of the economy, including the gov­
ernment and wrongdoers like Wells Fargo. So clearly
there is no reason not to implement these plans other
than wrongfully allowing for continuation of the status
quo of intentional violations of the Constitution and
federal and state laws through mass frauds and wrong­
ful concealment. Promote justice not malfeasance.
STATEMENT OF THE CASE
The foreclosure herein was wrongfully brought by
Wells Fargo in violation of multiple federal and FL
laws, including the UCC. Wells Fargo brought this ac­
tion in deliberate defiance of Fla. Stat. § 673.1041(1)
(2012), prohibiting it from foreclosing on a HELOC as a
non-negotiable instrument. Wells Fargo and its cohorts
committed multiple acts of Fraud on the Court, initi­
ated wrongful acts of retaliation against Mr. Nehrke
and his family as whistleblowers, and furthered its
scheme to defraud millions of unsuspecting homeown­
ers of their homes. With clear wrongful assistance from
Courts, Wells Fargo was allowed to unlawfully bring
this action, receive a wrongful void judgement and con­
ceal its crimes, including by way of mysterious “lost”
transcripts. Wells Fargo was the only party in posses­
sion and wrongfully tried to get the appeal to the 4th
DCA thrown out. The fact that the 4th DCA ignored the
lost transcripts issue which was clearly a botched at­
tempt by Wells Fargo and the Broward clerk is uncon­
scionable, as the clerk originally advised that it had
prepared and forwarded the transcripts and accepted
payment for close to five hundred dollars for doing so.9

9 Mr. Nehrke has still not received a refund from the Broward
Clerk for services it did not render and received payment for.

12
Meanwhile, after Mr. Nehrke uncovered the botched
transcript attempt and filed it within the Court, Wells
Fargo’s ex-CEO Tim Sloan abruptly resigned the next
day after receiving 100% support of the Board of Direc­
tors and its largest shareholder Warren Buffett only
hours prior. Within the next few days, the elite attorney
responsible for Wells Fargo’s appeal, was no longer
with the firm. This assistance and concealment of mass
fraud on the Courts and millions of Americans must
end, as violating Due Process rights and having prop­
erty “taken”, financially benefiting the government
through the NWS, which has recently been deemed un­
constitutional, is unconscionable.
Wells Fargo has also dredged up painful memories
of Mr. Nehrke’s wife’s wrongful death, as it falsely
claimed that in 2018 Mrs. Nehrke, deceased since 2015,
rose form the dead and requested a modification pack­
age. Mrs. Nehrke’s sudden death was brought on by
Wells Fargo’s years of relentless harassment and abuse
of her family. To make matters worse, Wells Fargo filed
a second foreclosure action on June 1st, 2018, Mr.
Nehrke’s and his deceased wife’s 50th Anniversary, and
conveniently held service of such documents for over a
month, until Saturday July 7th, his only daughter’ s
birthday. Curiously, the Broward Court felt it neces­
sary for two years in a row to deliberately ruin Mr.
Nehrke’s family’s Independence Day holidays, as it con­
veniently set the trials for both foreclosure actions on
July 3rd, 2018 & then the second in 2019. Again, you
just can’t make this stuff up.
Wells Fargo’s alleged credible witness was nothing
of the sort at trial, she struggled when asked pertinent
questions as to the securitization, rehypothecation, and

13
chain of title, including the paper trail of the note and
mortgage if Wells Fargo was acting as servicer as she
advised. Wells Fargo’s counsel immediately shouted to
the Court that Wells Fargo was the holder, deliberately
violating the UCC and Florida law. It was no wonder
Wells Fargo attempted to lose the transcripts, they
were completely damning to it and the subsequent con­
cealment of its unlawful foreclosure judgement.
The facts of law show that Wells Fargo never had
standing to bring this action and its second unlawful
foreclosure, as it was never a “designated holder”
of the note and mortgage under the UCC or Flor­
ida law. This is because it is well settled that as ser­
vicer Wells Fargo could never be an Article 3
holder, as it is acting solely as servicing agent,
the principal is always considered to be the
holder under the UCC. Florida law concurs, as Wells
Fargo could only be a holder by way of negotia­
tion, which requires the transfer of the entire
bundle of rights in the instrument, which never oc­
curred and Wells Fargo failed to allege, (bold emphasis
added). Wells Fargo also failed to supply a complete
chain of title outlining the history of multiple transfers
herein, especially all unlawful securitizations and rehy­
pothecation pledges. There are obvious questions as to
the validity of Wells Fargo’s alleged note and mortgage
being original wet seal documents which are required
to substantiate ownership and to receive a final judge­
ment under FL law. Since Wells Fargo is the servicer,
how come there are no other endorsements on the note
to effectuate a transfer from Wells Fargo to the real
party in interest? How come Wells Fargo to this day has
failed to disclose the true debt owner who must prove
that as the real party in interest it paid value for the

14
debt? Under the federal and FL rules set forth for fore­
closures, Wells Fargo has failed to satisfy any of the
rules to justify its standing in these proceedings and
the unlawful judgement herein which is void ab intio.
Within its second wrongful foreclosure action, Wells
Fargo had the audacity to claim that Mr. Nehrke was
causing delays and harassing it. In reality, this was a
deliberate fallacious attack which constitutes further
Fraud on the Court, as Mr. Nehrke clearly filed his fil­
ings on time while Wells Fargo needed 4 months of ex­
tensions herein to file its brief and therein its second
wrongful foreclosure waited some 5 months before fil­
ing an untimely answer to Mr. Nehrke’s affirmative de­
fenses. Albeit, its response was concealed as a motion
in support of foreclosure, but in reality is an untimely
answer which was allowed by Judge Ledee who’s ruling
made no sense, as he advised if he ruled in Mr. Nehrke’s
favor on his motion to strike Wells Fargo’s grossly late
answer, he wouldn’t be able to utilize his affirmative
defenses at trial.10 What? Still can’t make this stuff up.
More disturbing was the recent events that unfolded
at the foreclosure Court before the second unlawful
foreclosure trial. Wells Fargo took the harassment to
another level, by falsely accusing Mr. Nehrke of threat­
ening and intimidating people in the Broward Foreclo­
sure Court. These accusations are completely baseless,
Mr. Nehrke is an elderly veteran who has suffered 3
previous heart attacks, has skin cancer and has bad
shakes from progressive Parkinson’s disease, not the
picture of intimidation. He along with his daughter and
an attorney friend were harassed, physically pushed
aside and threatened with handcuffs while court offic­
ers led Mr. Nehrke down the hall to talk. Wells Fargo

10 Wells Fargo v. Nehrke,, 17th Circ. CACE18015052.

15
also objected to Mrs. Barone assisting him, when she
was allowed in all previous hearings and trials. This
was a blatant act to further harass Mr. Nehrke and his
family, that must be rectified by this Court. The wrong­
ful assistance in concealing Wells Fargo’s wrongdoings
is getting very sloppy and blatantly obvious. In fact,
every unlawful act by Wells Fargo and its cohorts that
involve the GSEs and the government puts the taxpay­
ers at further RISK to bear the burden.
Wells Fargo utilized its government mandated
HAMP modification fraud against Mr. Nehrke, and it
used Dual-tracking by bringing foreclosure while mod­
ification packages were under review. Mr. Nehrke and
bis deceased wife were wrongfully advised to stop mak­
ing payments, as they needed to be behind to qualify for
HAMP. This false misrepresentation was utilized by
Wells Fargo and others to force unsuspecting homeown­
ers into default so that it could collect on all the bets it
made against its customers best interests. This scheme
was publicly outed by ex-S.I.G. TARP, Neil Barofsky, in
his book BAILOUT, Chapter 8, Foaming the Runway.11
Treasury Making Home Affordable Reports showed

11 - “One particularly pernicious type of abuse was that servicers
would direct borrowers who were current on their mortgages to
start skipping payments, telling them that they would allow them
to qualify for a HAMP modification. The servicers thereby racked
up more late fees, and meanwhile many of the borrowers might
have been entitled to participate in HAMP even if they had never
missed a payment. Those led to some of the most heartbreaking
cases. Homeowners who might have been able to ride out the crisis
instead ended up in long trial modifications, after which the ser­
vicers would deny them a permanent modification and then send
them an enormous “deficiency” bill.” (emphasis added). - See also
Kuehlman v. Bank of America, 177 So3d 1282 (Fla.5th DCA 2015);
Nowlin v. Nationstar Mortg., LLC, 193 So.3d 1043 (2016).

16
Wells Fargo was only complying with its legal obligetions under HAMP less than 10% of the time, denying
HAMP modifications in order to seek “lucrative fees on
delinquent loans”, it only provided 9,761 HAMP trial
modifications out of the 110,807 required. Wells Fargo
would Bait & Switch customers into a secondary mod
that clearly benefitted it and its “Investor” instead of a
HAMP modification that was substantially more bene­
ficial to the customers. Wells Fargo continues to conceal
the identity of the investor herein, and utilized fraudu­
lent forced Lender Placed Insurance (LPI). Wells Fargo
wrongfully forced unsuspecting customers to pay for its
forced LPI policies to qualify for the trial payments,
while it was receiving secret “kickbacks” and/or incen­
tives. 12 Wells Fargo was ordered by the Court to get Mr.
Nehrke a claim number for its alleged “glitch” that sup­
posedly allowed them to wrongfully foreclose on numer­
ous customers, but it failed to abide. Wells Fargo ma­
nipulated LPI premiums with backdoor deals with in­
surers that led to its extensive control over LPI policies
it placed on its customers, within their fiduciary pro­
tected escrow accounts. Wells Fargo furthered its un­
lawful foreclosure schemes by utilizing a 150 page fore­
closure handbook outlining how to produce fraudulent
documents utilized to commit mass fraud.
Within its unlawful modification and foreclosure
fraud against Mr. Nehrke and his deceased wife, Wells
Fargo attempted to coerce them into submitting a state­
ment blaming his daughter and son-in-law for their fi­
nancial situation to allegedly assist in modification ap­
proval. Moreover, while Mr. Nehrke’s wife was on hos­
pice dying in August 2015, Wells Fargo wrongfully co-

12 See Simpkins v Wells Fargo Bank, N.A., 2013 WL 4510166, at *7
(S.D. Ill. Aug 26, 2013)

17
erced a family friend, a highly respected community fig­
ure, to not do a business deal with Mr. Barone by de­
faming the Barone’s and threatening his ongoing com­
mercial projects. This quashed the deal and irreparably
damaged a 50+ year friendship. These acts are unac­
ceptable and unlawful, and this Court must rectify.
Back a few years ago Fox News concealed a Broward
foreclosure Court story after a local producer substan­
tiated the wrongdoings by visiting the courtroom. Last
year a Sun-Sentinel reporter worked on Mr. Nehrke’s
and his family’s story, confirmed the unlawful foreclo­
sure sale that occurred while on appeal, only to have it
pulled at the last minute by the editors. Most recently,
while Mr. Nehrke and his family have been working
with the current and former officials of the DOJ, Fox’s
local South FL affiliate WSVN, was given a chance to
make right on its previous failure to expose Wells
Fargo’s and the Broward Court’s unlawful acts. The in­
vestigative reporter and her cameraman came to Mr.
Nehrke’s and his family’s homes and recorded hours of
interviews only to have the plug pulled by executives
when it was ready to air. The ridiculous excuse utilized
by elite executives was that they did not understand
foreclosures. Problem is they directed the reporter, who
had been at Mr. Nehrke’s home only hours prior and
was returning shortly, to not return to their home and
to not contact them any further. Why would they give
this direction if they just weren’t going to air the story?
Why would they give direction that is normally utilized
when someone is threatened not to do something?
REASONS FOR GRANTING THE WRIT
The vital questions raised affect all Americans
whether directly as victims or indirectly as taxpayers
and must be addressed, as these void judgements can

18
and will be attacked until rule of law prevails. The fate
of future generations hangs on the steadfastness to cor­
rect these Constitutional violations against Mr.
Nehrke, his family and millions of others. Rule of law
directs that void judgements are a nullity and have no
standing, and no Court or judge can make valid that
which is not. The injustices plaguing the Courts in fa­
vor of corporate and political interests must end. It’s
time for Constitutional rights of due process, fairness
and justice to prevail as it was meant to be when cre­
ated by our founding fathers.
The U.S. Government is undeniably utilizing the
GSEs as State-actor financial agents, and is syphoning
Billions of unlawful monies from these companies
which is coming from countless wrongful foreclosures
on Americans homes. With the recent federal Court rul­
ing that the NWS is unconstitutional, and the previous
ruling deeming the FHFA unconstitutional, this High
Court must step in and set the rightful precedent that
is needed to correct over a decade of wrongful foreclo­
sures. This is clearly a Constitutional issue which de­
mands exclusive federal jurisdiction and the addressment of this Supreme Court. Wells Fargo has commit­
ted unconscionable acts against millions of Americans
in furtherance of these unlawful foreclosures, many
that the government has an undeniable financial inter­
est in. These are far reaching issues of great public im­
portance which affect the lives of all Americans. These
issues can no longer be ignored and/or stonewalled in
the Courts, as the largest heist of American property
and wealth in our Country’s history must be rectified.
State records divisions contain a plethora of corrupted
land titles while secret securitizations, rehypotheca­
tions, default policies and multiple derivative hedges
have allowed Wells Fargo and others to gain unjust
monies from mass foreclosure fraud. These unlawful

19
and undisclosed securities transactions were misrepre­
sented to unsuspecting victims as traditional mort­
gages. Furthermore, the government has collected Bil­
lions in fines for numerous frauds that substantiates
the need for homeowner restitution, as unlawful bene­
fits well above the note balances owed were syphoned
from each property by non-legal owners like Wells
Fargo. These questions are ripe for review and address­
ing by the Court to set rightful Constitutional prece­
dent.
I. This Court Should Grant Certiorari To Ad­
dress The Jurisdiction of Wells Fargo and Na­
tional Banks, and the GSEs Acting Solely as Fi­
nancial Agents of the United States
Under the National Bank Act, 12 U.S.C. 1 et seq.,
the states are prohibited from interfering in the daily
operations of national banks like Wells Fargo. Wells
Fargo enjoys the benefits of a federal charter which al­
lows it exclusive federal pre-emption and regulation,
essentially removing the states from any authority to
affect its daily business. It is not a coincidence that
Wells Fargo and other national banks chose to orches­
trate their unlawful schemes to defraud millions of
homeowners in the state Courts. The states along with
their appendage Courts have no authority over Wells
Fargo, so it is unclear under the provisions set forth in
the NBA, how any decision by a state Court does not
directly affect its daily business and violate the NBA.
This Court held in Watters v. Wachovia Bank, N. A., No.
05-1342, 550 U.S. 1 (2007), that under 12 U.S.C. §
484(a), state authorities are generally prohibited from
exercising visitorial powers over national banks. In
other words, "[s]tate officials may not exercise visitorial
powers with respect to national banks."

20

12 C.F.R. 7.4000(a). Under 12 C.F.R. 7.4000(a)(2)(i)(iv):
"Visitorial powers" encompass "[examination of a [na­
tional] bank," "[inspection of a bank's books and rec­
ords," "[r]egu lation and supervision of activities au­
thorized or permitted pursuant to federal banking law,"
and "[e]nforcing compliance with any applicable federal
or state laws concerning those activities." See also
Farmers' & Mechanics Nat'l Bank v. Dearing, 91 U.S.
29, 34 (1875). This direction by this High Court does not
leave room for any other interpretation, states includeing their appendage Courts have no authority over
Wells Fargo and national banks, which are federally
chartered and regulated, demanding exclusive federal
jurisdiction. Subjecting them to the law, which de­
mands federal jurisdiction, alone would deter the un­
lawful acts by Wells Fargo and other national banks.
As previously noted herein Pg. 4, Fn. 3, Fannie Mae
within Treasury agreements with Wells Fargo is acting
solely as financial agent of the United States. This con­
curs with the previous petitions submitted to this Court
and with a district Court ruling correctly following this
Court’s State-actor direction set in Lebron v. National
Railroad Passenger Corp., 513 U.S. 374, 115 S. Ct. 961,
130 L. Ed. 2d 902 (1995), and clarified in Dept, of Trans,
v. Assoc, of American Railroads, 135 S. Ct. 1225, 191 L.
Ed. 2d 153 (2015), where it directed Courts to not just
rely on Congressional labels, but to assess the “practi­
cal reality” of an entity’s operating status in fact. See
Sisti v. Federal Housing Finance Agency, 2018 WL
3655578 (D.R.I. Aug. 2, 2018). This decision substanti­
ates the arguments herein and within previous peti­
tions. Additionally, the arguments are substantiated by

21
the government asserting the authority to sue on the
GSEs behalf.13
It is undeniable that Federal jurisdiction of the gov­
ernment’s interests lies within Article III § 2 Cl. 1 of the
Constitution and 28 U.S.C. § 1345. This Court set prec­
edent in United States v. Texas, 143 U.S. 621 (1892) the
federal judicial power exclusive to the Supreme Court
included “cases in which the United States was a party, ”
(emphasis added). The GSEs are acting in the sole in­
terest and financial benefit of the government, which
warrants federal jurisdiction of millions of Americans
foreclosures wrongfully brought by Wells Fargo and
others in improper state venues, rendering the judge­
ments void ah initio.
Additionally, this Court’s “entwinement test” under
Brentwood Academy v. Tennessee Secondary School
Athletic Ass’n, 531 U.S. 288, 297, 121 S.Ct. 924, 148
L.Ed.2d 807 (2001), holds the GSEs as de-facto Stateactors, as their actions are clearly entangled with
State-action. This test addresses instances in which the
government assists and/or a State-actor “affirmatively
authorizes, encourages, or facilitates private conduct
that violates the Constitution.”14 Furthermore, in Hol­
lingsworth v. Perry, 133 S. Ct. 2652, 186 L. Ed. 2d 768,
2013 U.S. LEXIS 4919 (2013), this Court outlined the
agency test which is substantiated by the aforemen­
tioned Treasury agreements because the government is
the sole beneficiary with right of Total Control over the
GSEs operations and finances. (“An essential ele­
ment of agency is the principal's right to control

13 See United States of Amer. Ex. Rel. Peter D. Grubea v. Rosicki,
Rosicki & Assoc., P.C., et al., No. l:12-cv-07199 (S.DN.Y. 2012).
14 See Erwin Chemerinsky, Constitutional Law: Principles and
Policies, at 539 (4th ed. 2011).

22

the agent's actions.”) (bold emphasis added).15 Under
these holdings the GSEs are de-facto State-actors sub­
jecting them to federal jurisdiction and solidifies that
millions of unlawful foreclosures are vital issues, as it
is well settled that an American’s Constitutional (“right
to maintain control over his home ... is a private inter­
est of historic and continuing importance”). United
States v. James Daniel Good Real Prop., 510 U.S. 43,
53-54, 114 S. Ct. 492, 126 L. Ed. 2d 490 (1993)..!6 Ac­
cordingly, this Court has long held that the federal
Court shall decide arguments over how to interpret the
Constitution and federal law. (See Marbury v. Madison,
5 U.S. 137 (1803)).
II. This Court Should Grant Certiorari To Ad­
dress the Vital Issues of Undisclosed Deriva­
tives, Securitization & Rehypothecation Vio­
lating NEMO DAT QUOD NON HABET, SEC Se­
curities Laws and the Loan Contracts
The secondary Residential Mortgage Backed Securi­
ties (RMBS) market contributed to the collapse of the
housing market. The government was well aware of
this and created an RMBS task force to conduct inves­
tigations inside banks like Wells Fargo to assist victims
in achieving justice.17 Unfortunately, this task force did
not live up to its purpose upon creation and has led to
countless victims saddled with unconstitutional mani­
fest injustices. Mr. Nehrke and his family, along with
Back a few years ago Fox News concealed a Broward
15See RESTATEMENT (THIRD) OF AGENCY § 1.01 cmt. f
(1)(2006).
16 See Brian Taylor Goldman, “The Indefinite Conservatorship of
Fannie Mae and Freddie Mac is State-Action”, 17 J. Bus. & Sec. L.
11 (2017), Michigan State Univ. College of law, Available at
http://digitalcommons.law.msu.edU/jbsl/voll7/issl/l
17 https://www.iustice.gov/sites/default/files/ag/legacv/2Q12/01/27/residential-mortgage-backed-securities.pdf

23

millions of other Americans were misled and deceived
into believing they were entering into traditional mort­
gage contracts, when in fact they were undisclosed se­
curities transactions in violation of Securities and
Exchange Commission (SEC) Rule 10b-5 targeting se­
curities fraud authorized under § 10(b) of the Securi­
ties Exchange Act of 1934, and codified at 17 C.F.R §
240. 10b-5 Employment of manipulative and deceptive
devices. This Act was adopted to provide more transpar­
ency in secondary securities markets, similar to the
current RMBS markets, in response to the stock mar­
ket crash of 1929. Wells Fargo clearly violated this rule
by employing a scheme to defraud Mr. Nehrke, his fam­
ily and countless others by way of false misrepresenta­
tion of the loan contracts, by making untrue state­
ments or omitting material facts and by engaging
in any act, practice or course of business which
operates as a fraud or deceit. (bold emphasis added).
As part of this securities fraud, Wells Fargo securitized
and rehypothecated the loan herein multiple times col­
lecting unjust benefits by selling and/or pledging the
property it did not possess or have a right to in violation
of NEMO DAT QUOD NON HABET (“no one gives
what they don’t have”). It accomplished this through
packaged RMBS securities and trading with third par­
ties in the open market. Wells Fargo failed to disclose
all of these secret secondary market securities transact­
ions, including numerous securitizations, rehypothe­
cations, secondary default insurances and derivative
transactions, all of which were not authorized by Mr.
Nehrke, his family, millions of other customers or by
the contracts, creating multiple breaches. These nu­
merous breaches were part of a calculated scheme to
defraud the Court and the aforementioned parties of
their homes, violating their Constitutional Rights and
essentially voids the contracts. Petitioner and millions

24
of Americans did NOT give Wells Fargo and others the
authority to sell, pledge or gamble their properties in
the securities markets. These securities transactions
were not disclosed and the proceeds collected utilizing
the properties were not applied to the note balances as
required by the contracts. Wells Fargo also utilized se­
cret default policies, including fraudulent FHA policies,
CDS, CDOs, and similar derivatives to profiteer from
foreclosures, giving it an incentive to push its custom­
ers into default and drag it out to make it next to im­
possible to cure. With these secret benefits Wells Fargo
collected sums far in excess of the legal debt owed while
not crediting the ill-gotten gains to the debt balances.
Another vital issue with the unlawful securitizations
and rehypothecations is that the GSEs uniform note
does not fit the definition of a negotiable instrument
prohibiting it from being traded between parties. See
Ice, Thomas Erskine, Negotiating the American Dream:
A Critical Look at the Role of Negotiability in the Fore­
closure Crisis, The Florida Bar, Vol. 86, No. 10 (Decem­
ber 2012), at pg. 8.18 These actions and omissions are
clearly in violation of Rule 10b-5.
III. This Court Should Grant Certiorari To Ad­
dress Servicer Standing Under the UCC and
Florida Law and to Address the Importance of
the Real Party In Interest in Foreclosures
Wells Fargo falsely presented itself to the Court as
an actual holder “designated holder” with authorization
to pursue this action under Article 3 of the UCC. Wells
Fargo’s purported standing as an Article 3 holder as

18 (pointing out that the form Fannie Mae/Freddie Mac Uniform
Instrument Note does not meet the definition of a negotiable in­
strument and was never intended to)

25
servicer for an undisclosed/secret party fails, as a ser­
vicer can never be an article 3 holder. As servicer under
Article 3 of the UCC, Wells Fargo is not a “holder” of
the note because the UCC considers the principal to
be the holder when an agent is in possession of
the principal’s property. See In re Phillips, 491 B.R.
255, 263 (Bankr. D. Nev. 2013) (“Thus, a person is a
“holder” of a negotiable instrument when it is in the
physical possession of his or her agent.’), (bold em
phasis added). See also, Bankers Trust (Delaware) v.
236 Beltway Inv., 865 F. Supp. 1186, 1195 (E.D. Va.
1994) (the UCC “sensibly recognizes that a party
has constructive possession of a negotiable in
strument when it is held by the party’s agent...”
[internal citations omitted])(bold emphasis added). Ad
ditionally, under § 673.2011, Fla. Stat. Ann., (“Negoti
ation always requires a change in possession of the in
strument because nobody can be a holder without
possessing the instrument, either directly or
through an agent.) (bold emphasis added). Moreover,
under § 673.2031(4), Fla. Stat. (“If a transferor pur
ports to transfer less than the entire instrument,
negotiation of the instrument does not occur.”)
and a party can only become an Article 3 holder by way
of “negotiation”—which involves a transfer of the
entire bundle of rights in the instrument. §
673.2011, Fla. Stat. (defining negotiation)(bold empha
sis added). Wells Fargo may purport that a secret party
gave it possession of the note for the purpose of enforce
ing, but this is NOT a negotiation under Florida
law and was never intended to be. (emphasis added).
Adherence to Statutes is imperative, as “the Legisla­
ture does not intend to enact useless provisions, and
courts should avoid readings that would render part of
a statute meaningless.” Borden v. East-European Ins.
Co., 921 So. 2d 587, 595 (Fla. 2006) (citing State v.

26

Goode, 830 So. 2d 817, 824 (Fla. 2002)). In a situation
where one of the GSEs may be the undisclosed party,
Fannie Mae Servicing Guide, Part I, Chapter 2, Section
202.06, Note Holder Status for Legal Proceedings Con­
ducted in the Servicer’s Name, advises “Fannie Mae
is at all times the owner of the mortgage note,
whether the note is in Fannie Mae’s portfolio or
whether owned as trustee...”,19 therefore there
could never be any negotiation of the entire bundle of
rights as required by law, so Wells Fargo could never
became a holder or real party in interest and would fail
to satisfy standing. See Balch v. LaSalle Bank, N.A.,
171 So. 3d 207, 209 (FLA. 4th DCA 2015) “evidence that
the note was transferred into the trust prior to the fore­
closure action is insufficient by itself to confer standing
because there was no evidence that the indorsee
had the intent to transfer any interest to the trus­
tee.” (bold emphasis added). Accordingly, Wells Fargo
cannot be considered a holder under the UCC and FL
law in its capacity as servicer, depriving it of standing
and rendering this action and judgement void ab initio,
regardless if it possessed a properly endorsed note.
Although Wells Fargo claimed it was the holder of
the note for some secret party who gave it authorization
to bring this action, it failed to satisfy conditions under
FL law as its conclusory presumptions were never sub­
stantiated with evidentiary documentation specifically
ratifying its actions herein. The 4th DCA set the prece­
dent in Elston/Leetsdale, LLC v. CWCqpital Asset
Mgmt. LLC, 87 So. 3d 14 (Fla. 4th DCA 2012), where it
made it clear that a servicer may only be considered as
a party to a foreclosure action if (1) its principal/real
party in interest has joined in or (2) ratified its conduct

19 Servicing Guide, Part I, Chapter 2, Section 202.06, Note Holder
Status for Legal Proceedings Conducted in the Servicer’s Name.

27

by authorizing its bringing of the action. Herein, Wells
Fargo failed to join the real party in interest as a named
party, in fact it never disclosed this secret party’s iden­
tity, nor did Wells Fargo submit any substantive evi­
dence to prove the real party in interest ratified/author­
ized this action. Therefore, Wells Fargo was never a
real party in interest at the time this case was filed nor
at the time of judgement. Elston/Leetsdale outlined
that the real party in interest must be joined as a party
unless the relationship between real party in interest
and plaintiff fits into one of these six categories: 1) a
personal representative; 2) an administrator; 3) a
guardian; 4) a trustee of an express trust; 5) a party
with whom or in whose name a contract has been made
for the benefit of another; or 6) a party expressly au­
thorized by statute to sue in that party’s own name
without joining the party for whose benefit the action is
brought. Fla. R. Civ. P. Rule 1.210(a). Accordingly,
Wells Fargo’s relationship with the real party in inter­
est as a secret party cannot fit one of these six catego­
ries, and as such under Elston /Leetsdale it was re­
quired to join the real party in interest, which it failed
to do, depriving it of standing to bring this action. The
rule expressly lists the types of agents that may sue in
their own name without joining the real party in inter­
est which implies the exclusion of other relationships.
See Biddle v. State Beverage Dept., 187 So. 2d 65, 67
(Fla. 4th DCA 1966) (applying ‘[ejxpressio unius est exclusio alterius’—the mention of one thing implies
the exclusion of another)(bold emphasis added).
Although Fla. R. Civ. P. Rule 1.210(a) does not ex­
pressly mention ratification the district Courts have de­
cided to follow the 3rd DCA in Kumar Corp. v. Nopal
Lines, Ltd., 462 So. 2d at 1185 (affidavits unequivocally
show that principal ratified and endorsed agent’s action

28

in bringing suit on principal’s behalf)- Accordingly,
Wells Fargo also failed to satisfy this second vital op­
tion to prove standing, as it never produced any sub­
stantive evidence in the form of affidavits from the real
party in interest expressly authorizing it bringing this
specific foreclosure action against Mr. Nehrke. Since it
is mandatory that a party must acquire standing before
filing suit, Wells Fargo’s hoodwinking of the Court at
the onset with its purported standing, legal conclusions
and wrongful presumptions of facts renders these pro­
ceedings void ab initio. See Boyd v. Wells Fargo Bank,
N.A., 143 So. 3d 1128 (Fla. 4th DCA 2014) (reversing
summary judgment of foreclosure because foreclosing
lender failed to produce documentation estab­
lishing that it had standing at the time it filed the
foreclosure complaint), (bold emphasis added).
Wells Fargo’s claims as agent also fail, because such
an allegation without allegations necessary to establish
an agency relationship, is therefore a mere legal con­
clusion that the Court should not have taken as true.
See Loan Co. v. Smith, 155 So. 2d 711 (Fla. 1st DCA
1963) (holding that mere legal conclusions are fa­
tally defective unless substantiated by sufficient
allegations of ultimate fact); Phelps v. Gilbreth, 68
So. 2d 360 (Fla. 1953) (holding that allegations of
legal conclusions are of no legal effect or signifi­
cance and are generally ignored in the construc­
tion and consideration of the pleadings of which
they are a part), (bold emphasis added). By not
providing any endorsement, assignment and/or affida­
vit attached to the note from the real party in interest
transferring all rights thereto to satisfy negotiation and
to satisfy ratification under FL law, Wells Fargo was
deprived of standing to bring this action.

29
Additionally, Wells Fargo cannot claim to be act-ing
as servicer for the note and owner of the mortgage,
as it is well established law that the mortgage follows
the note, but the note never follows the mortgage, so
Wells Fargo could not have owned the mortgage and
had standing to foreclose while a secret party owns the
note. See Carpenter v. Longan, 83 U.S. 271 (1872) “the
note and mortgage are inseparable; the former as
essential, the latter as an incident. An assign­
ment of the note carries the mortgage with it,
while an assignment of the mortgage alone is a
nullity.” (bold emphasis added) and Lizio v. McCullom, 36 So. 3d 927, 929 (Fla. 4th DCA 2010) “The party
seeking foreclosure must present evidence that it
owns and holds the note and mortgage in ques­
tion in order to proceed with a foreclosure ac­
tion.” (bold emphasis added). Wells Fargo failed to sat­
isfy standing under Lizio, and its allegations clearly
create a genuine issue of material fact as to whether it
owned and held the note and mortgage under federal
and FL law, thus depriving it of standing to foreclose.
See Verizzo v. Bank of New York, 28 So. 3d 976, 978
(Fla. 2d DCA 2010) (providing that “there is a genu­
ine issue of material fact as to whether the Bank
of New York owns and holds the note and has
standing to foreclose the mortgage.”) (bold empha­
sis added). And when doubt exists, (“It is well settled
that a plaintiff in a foreclosure case must demon­
strate that it had standing at the time the com­
plaint was filed.”) McClean v. JPMorgan Chase Bank
Nat’l Ass’n, 79 So. 3d 170, 173 (Fla. 4th DCA 2012).
(bold emphasis added). Accordingly, “Where the de­
fendant denies that the party seeking foreclosure
has an ownership interest in the mortgage, the is­
sue of ownership becomes an issue the plaintiff
must prove.” See Lizio; Carapezza v. Pate, 143 So. 2d

30

346, 347 (Fla. 3d DCA 1962). (bold emphasis added).
Taking Wells Fargo’s allegations at face value directs,
as the only named Plaintiff, that it owns the mortgage
separating it from the note that it services for a secret
party owner in direct violation of this Court’s long-held
direction in Longan rendering the instruments as nul­
lities and this action and judgement as void ab initio.
This Court’s holding concurs with the use of Mortgage
Electronic Registration Systems (MERS) herein, as it is
well known the mortgage and note were immediately
separated and in fact most likely the original “wet seal
documents” were destroyed upon electronic scanning
and transfer.
Furthermore, this Court set precedent for thirdparty actions in Valley Forge Christian Coll. v. Ameri­
cans United for Separation of Church & State, Inc., 454
U.S. 464, 474 (1982).20 The Florida Supreme Court
holding in Smith v. Kleiser, 91 Fla. 84 (Fla. 1926) con­
curs, (“In a suit to foreclose a mortgage...it should be in
the name of the real owner of the debt secured. ”) (em­
phasis added). The Real-Party-In-Interest Doctrine and
Fed. R. Civ. P 17 also concur, (“An action must be pros­
ecuted in the name of the real party in interest. ”) (em­
phasis added). Moreover, Rule 19 requires parties to a
suit when the Court cannot accord complete relief
among existing parties. This concurs with the afore­
mentioned FL law requiring joinder. Wells Fargo is not
the true debt owner and cannot legally surrender any
of the true note owner’s rights.
Additionally, Wells Fargo violated Florida Statute §
673.1041(1) (2012), a HELOC, as Mr. Nehrke’s herein,

20 (“real party in interest must assert its own legal rights and inter­
ests, and cannot rest his claim to relief on the legal rights or inter­
ests of third parties. ”)(emphasis added).

31
is considered non-negotiable and is not a self-au­
thenticating negotiable instrument, it is a “credit
limit” and not an unconditional promise to pay a
fixed amount of money. Accordingly, a negotiable in­
strument is an unconditional promise or order to pay a
fixed amount of money, with or without interest or other
charges described in the promise or order.” §
673.1041(1), Fla. Stat. (2012) (emphasis added). The
Florida 2nd DCA considered this in Third Federal Sav­
ings & Loan Association of Cleveland v. Koulouvaris,
Case No. 2D17-773 (Fla. 2nd DCA May 18, 2018) and
held (“The HELOC note failed to require the payment
of a fixed amount of money, making it a nonnegotiable
instrument”). Accordingly, the HELOC establishes a
“credit limit” from which Mr. Nehrke could “request an
advance at any time.”, which would “reduce your avail­
able credit.” (The HELOC note was not an uncondi­
tional promise to pay a fixed amount of money. Rather,
it established “[t]he maximum amount of borrowing
power extended to a borrower by a given lender, to be
drawn upon by the borrower as needed.” See Line of
Credit, Black's Law Dictionary, 949 (8th ed. 1999)).
(This distinction is not esoteric legalese. Florida law is
clear that a “negotiable instrument” is “an uncondi­
tional promise or order to pay a fixed amount of money,
with or without interest or other charges described in
the promise or order.” § 673.1041(1), Fla. Stat. (2012)
(emphasis added). The HELOC note reflects no such
undertaking. It only obligates the Koulouvarises to re­
pay whatever they borrow, up to $40,000.). The Court
concluded (The HELOC note failed to require the pay­
ment of a fixed amount of money, making it a nonegotiable instrument. As such, it was not self-authenticat­
ing. Thus, absent other proof of authentication, it was
inadmissible into evidence.). Wells Fargo did not pro­
vide any proof of authentication prior to Mr. Nehrke’s

32

non-negotiable HELOC instrument being admitted into
evidence, in fact, Wells Fargo came late to the game
with a treasure trove of “lost” document claims, which
cannot legally be presumed as original “unaltered” doc­
uments, especially with its 150 page foreclosure fraud
manual in play. Furthermore, the 2nd DCA concluded
that in similar circumstances as faced herein it was
proper for the trial Court to involuntarily dismiss the
case, of which the Court herein should have obliged.
The Florida 5th DCA also reached the same conclu­
sion as the 2nd in Koulouvaris, in Chuchian v. Situs
Invs., LLC, 219 So.3d 992, 993 (Fla. 5th DCA 2017), in
which it agreed that a ("credit agreement . . . was a
nonnegotiable instrument because it was not for a fixed
sum."). This principle is clear and obvious within Flor­
ida law rendering its precedent as axiomatic. The
HELOC issues faced herein have been addressed by le­
gal professionals and alike who’s conclusions agree
with the aforementioned directions.21
IV. This Court Should Grant Certiorari To Ad­
dress Florida Law That Infringes On Consti­
tutional Due Process with Non-Opinioned
PCA Decisions that Remove the Review Au­
thority Of The Highest State Court
No Court should be allowed to rule without citation
to substantiate its holdings if properly rendered by the

21 See Peterson, David E., Cracking the Mortgage Assignment Shell
Game, The Florida Bar Journal, Vol. 85, No. 9 (November 2011) at
pg. 10, fn. 32 (Home Equity Lines of Credit are not negotiable and
not covered under Article 3 of the UCC); Renuart, EHzabeth, Un­
easy Intersections: the Right to Foreclose and the U.C.C., 48 Wake
Forest Law Review 1205, at pg. 1228-29 and cases cited therein (a
HELOC note is not negotiable because it does not contain a provi­
sion requiring payment of a fixed amount of money).

33

law, especially a state Court reviewing Constitutional
issues that have far reaching implications into the pub­
lic domain and federal Court jurisdiction. A non-opinioned order can in no way satisfy the Constitutional
guarantee of a fair legal process, nor can it satisfy the
common law doctrine of fair procedure. Herein, the trial
court and 4th DCA never cited any case law to back up
their decisions, which as outlined herein with numer­
ous facts of law to contradict, are obviously flawed.
Non-opinioned orders in FL have irritated litigants and
attorneys to the point that one put together the data.22
It’s time for the justice system to implement changes of
unconstitutional non-opinioned orders, that require all
Courts to supply written opinions utilizing substantive
law to satisfy the Constitutional Rights of Fair Legal
proceedings and Due Process.
This is vital because this High Court has made it
clear that it is of great Constitutional importance that
"justice must satisfy the appearance of justice", Levine
v. United States, 362 U.S. 610, 80 S.Ct. 1038 (1960), cit­
ing Offutt v. United States, 348 U.S. 11, 14, 75 S.Ct. 11,
13 (1954). The federal 8th Circuit concurred in Pfizer
Inc. v. Lord, 456 F.2d 532 (8th Cir. 1972), "It is im­
portant that the litigant not only actually receive jus­
tice, but that he believes that he has received justice."
The U.S. Constitution guarantees the right to a fair le­
gal process, which is essential in satisfying Due Pro­
cess. See United States v. Sciuto, 521 F.2d 842, 845 (7th
Cir. 1996) ("The right to a tribunal free from bias or

22 See Samantha Joseph, Can He Say That? Frustrated Attorney
Asks, “What’s Wrong With the Third DCA?”, Daily Business Re­
view, Available at: https://www.law.com/dailybusinessreview/sites/dailybusinessreview/2018/02/09/can-he-say-that-frustratedattorney-asks-whats-wrong-with-the-third-dca/?slreturn=20180321235644

34
prejudice is based, not on section 144, but on the Due
Process Clause.").
CONCLUSION
For all these reasons, the Court should grant this
petition.23
Dated: September 13th, 201
By:
Garey Nehrke
2920 NW 2nd Avenue
Pompano Beach, FL 33064
954-644-9900
Pro Se Petitioner

23 Alternatively, a denial of certiorari does not limit this Supreme
Court’s power to right the numerous wrongs against the Petitioner
and his family by vacating the judgement herein and therein the
second unlawful foreclosure against him and dismissing with prej­
udice as sanction for Wells Fargo’s numerous atrocious acts of
Fraud on the Court, the Petitioner and his family.

